<html>
<title> - [H.A.S.C. No. 112-69]THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES: TEN YEARS AFTER 9/11 AND TWENTY-FIVE YEARS AFTER GOLDWATER-NICHOLS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-69]


 
        THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES: TEN YEARS
        AFTER 9/11 AND TWENTY-FIVE YEARS AFTER GOLDWATER-NICHOLS

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 22, 2011

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
70-785                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9bfcebf4dbf8eee8eff3fef7ebb5f8f4f6b5">[email&#160;protected]</a>  
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHLEEN C. HOCHUL, New York
DUNCAN HUNTER, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Thursday, September 22, 2011, The Future of U.S. Special 
  Operations Forces: Ten Years After 9/11 and Twenty-Five Years 
  After Goldwater-Nichols........................................     1

Appendix:

Thursday, September 22, 2011.....................................    23
                              ----------                              

                      THURSDAY, SEPTEMBER 22, 2011
THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES: TEN YEARS AFTER 9/11 AND 
               TWENTY-FIVE YEARS AFTER GOLDWATER-NICHOLS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Lumpkin, Michael D., Acting Assistant Secretary of Defense, 
  Special Operations/Low-Intensity Conflict......................     3
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     5

                                APPENDIX

Prepared Statements:

    Langevin, Hon. James R.......................................    28
    Lumpkin, Michael D...........................................    30
    McRaven, ADM William H.......................................    47
    Thornberry, Hon. Mac.........................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Hunter...................................................    57

Questions Submitted by Members Post Hearing:

    Mr. Thornberry...............................................    61
    Mr. Wittman..................................................    63
THE FUTURE OF U.S. SPECIAL OPERATIONS FORCES: TEN YEARS AFTER 9/11 AND 
               TWENTY-FIVE YEARS AFTER GOLDWATER-NICHOLS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                      Washington, DC, Thursday, September 22, 2011.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    Twenty-five years ago, the Congress added an amendment to 
Goldwater-Nichols legislation that created the Special 
Operations Command. That law listed 12 core mission areas for 
the command and gave SOCOM some unique authorities.
    It certainly is appropriate, it seems to me, for Congress 
to review its handiwork, especially as we look back now at a 
decade of fighting terrorists, a decade in which SOCOM has 
roughly doubled in personnel, tripled in budget, and quadrupled 
in overseas deployments. We may not be able to quantify as 
precisely the achievements of these last 10 years, but they 
are, in my opinion at least, undeniable.
    Looking back on the past decade, my strongest impression is 
of the incredibly talented, committed, hardworking individuals 
who serve our country in SOCOM units. As I travel to Iraq, 
Afghanistan, and elsewhere, I am continually impressed and 
inspired by them, just as I know other members of this 
subcommittee are. The capability that these people, with their 
training, their hardware, and their supporting organizations, 
bring to our country is without parallel anywhere in the world.
    Some of that capability was on display to the world in the 
Osama bin Laden raid. But SOCOM does much more, often with 
little or no fanfare, as it should be. It may well be that the 
future of the command will require greater emphasis on some of 
those other mission areas, such as unconventional warfare and 
foreign internal defense.
    Of course, we consider the future of SOCOM and our entire 
military within the constraints of tight budgets. But it seems 
to me it would be the height of foolishness to provide 
insufficient resources to an entity charged with fighting 
terrorists, preventing weapons of mass destruction from being 
used and training other nations to defend themselves so that we 
don't have to.
    The first job of the Federal Government is to defend the 
Nation, and SOCOM is truly the tip of the spear that does that. 
We are honored to have Admiral McRaven in his first testimony 
before this subcommittee since assuming his new position as 
SOCOM commander and appreciate Assistant Secretary Lumpkin, 
himself a former SEAL [U.S. Navy Sea, Air, Land teams], for 
being here today as well.
    Before turning to our witnesses, I would yield to the 
distinguished gentleman from Rhode Island, the ranking member, 
for any comments he would like to make.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 27.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
for convening this hearing.
    Secretary Lumpkin and Admiral McRaven, welcome, and thank 
you very much for being here today. I look forward to your 
testimony. The importance of SOF [Special Operations Forces] in 
today's fight, while so often in the shadows, as the chairman 
pointed out, was brought into the spotlight during the daring 
raid into Abbottabad back in May. All of us in the room, and in 
fact the Nation, owe a tremendous debt of gratitude to the men 
and women who serve with you in SOCOM. Raids such as the one 
which killed Osama bin Laden highlight the wisdom and the 
prescience of the authors of the Goldwater-Nichols legislation.
    Today, joint operations between the services are 
commonplace and expected, and we have seen an unprecedented 
rise in both the capability of our Special Operations Forces 
and the prominence they play in our modern military.
    It wasn't that long ago that SOF was looked upon as sort of 
a boutique force, one with niche capabilities that performed 
important but lesser activities around the edges of a primary 
conventional force effort. Because of their efforts, they were 
known often only to a few with the right clearances or keen-
eyed observers. Some even questioned whether we needed SOF at 
all.
    Well, 10 years after 9/11, and due in no small part to our 
experience fighting Al Qaeda and its affiliates in Iraq and 
Afghanistan, they are the stuff task forces are built around, 
oftentimes augmented by conventional forces and a very central 
component of our ongoing fights in the Middle East and 
elsewhere. Those legislators who had the vision to create SOCOM 
could not have envisioned exactly how SOF would evolve in the 
25 years that followed. But they knew they had to create a 
framework that would enable success, whichever way requirements 
pulled the force. That remains our task today.
    Now, I am not suggesting that we need another massive piece 
of legislation, but we do need to think about whether the way 
we are currently training, manning, and equipping our SOF today 
is sufficient and appropriate for the future. We must utilize 
the lessons learned from the past 10 years of warfare and ask 
tough questions. Have our SOF forces withstood the last 
decade--I should say how have our SOF forces withstood the last 
decade? What factors, both internal and external, help and hurt 
their growth and efficiency? As the defense budgets tighten in 
coming years, where must SOF grow? And which areas have the 
experiences that have yet to be explored?
    The timing of this hearing couldn't be better, Mr. 
Chairman. And we have to consider how best to posture our 
forces for the future security challenges and contend with the 
prospect of austere resources. I hope we see a wide-ranging and 
robust discussion today about lessons learned and thoughts 
about what is to come. Are the acquisition authorities agile 
enough while still properly tailored to yield the specialized 
equipment you need when you need it, without duplicating other 
efforts and costs elsewhere in the greater DOD [Department of 
Defense] budget? Would the rest of the force benefit from new 
acquisition efforts, as appropriate? Can we train your people 
properly? Are the authorities governing your operations crafted 
so that you can do what you need to do, and yet still be 
subject to appropriate control and oversight? And how have the 
lines blurred between Title 10 and Title 50 affected the force? 
And most importantly, are you able to stay true to your core, 
to the SOF truths, which all operators know and understand in 
spite of the current operational and fiscal realities? These 
are the questions that we hope to explore today.
    And Mr. Secretary and Admiral, thank you both for your 
great service to our Nation. We are deeply in your debt, and to 
those whom serve under you. And I look forward to your 
discussion and your testimony here today.
    Mr. Chairman, thank you again for convening this hearing. I 
yield back.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 28.]
    Mr. Thornberry. I thank the gentleman.
    Now we will turn to our witnesses: Mr. Michael D. Lumpkin, 
Acting Assistant Secretary of Defense for Special Operations/
Low-Intensity Conflict; and Admiral William McRaven, Commander, 
U.S. Special Operations Command.
    Mr. Lumpkin and Admiral, without objection, your full 
statements will be made part of the record. And please feel 
free to summarize them and make such comments as you see fit. 
Mr. Lumpkin.

STATEMENT OF MICHAEL D. LUMPKIN, ACTING ASSISTANT SECRETARY OF 
       DEFENSE, SPECIAL OPERATIONS/LOW-INTENSITY CONFLICT

    Mr. Lumpkin. Good morning.
    Thank you, Chairman Thornberry, Ranking Member Langevin, 
and members of the committee. Thank you for the invitation to 
be here today.
    As we approach the 25th anniversary of the founding of 
United States Special Operations Command and the Office of the 
Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict, I want to acknowledge the unique 
relationship we have had with the Congress and this committee. 
Your support, and that of the American people, for our Special 
Operations Forces was essential in the creation of SOCOM and 
SO/LIC, and continues to be the key enablers for us today. As 
we reflect on the lessons learned over the past decade, it is 
crucial that we put them into a broader context.
    In 1970, American Special Operations Forces carried out one 
of the most daring raids in American military history, the 
attempted rescue of 61 American prisoners of war suspected of 
being held in a North Vietnamese prison camp at Son Tay, a mere 
40 miles west of Hanoi.
    Only 10 years later, in 1980, our Special Operations Forces 
attempted to rescue 55 American hostages held in Iran. That 
operation failed, resulting in the death of eight service 
members and damaging American prestige worldwide, principally 
due to a decrease in operational capabilities.
    Thirty-one years after the tragedy of Desert One, our 
Special Operations Forces have come full circle. The daring and 
successful raid at Abbottabad, approximately 40 miles north of 
Islamabad, led to the death of Osama bin Laden, showcases the 
superb skills of special operators today.
    As we enter an era of constrained defense budgets, we must 
not repeat the mistakes that led to the degraded SOF 
capabilities throughout the 1970s. Our goal must be to retain 
and, in fact, hone all of our SOF capabilities so that our 
Nation will have them in full measure in the decades to come. 
We must retain and sharpen our proven direct action capability, 
the tip of the spear so to speak, which is what most Americans 
think of when they hear Special Operations.
    But this is only one aspect of what SOF does. There are 
less obvious, but equally important SOF capabilities for 
indirect activities that enable us to persistently engage 
throughout the world, working with international partners to 
build their capabilities before conflicts arise so that they 
can defend themselves and, by extension, defend us.
    Our experiences have validated the five SOF truths. First, 
humans are more important than hardware. SOF is successful 
because we equip the man, not man the equipment. It's all about 
our people.
    This leads us to the second SOF truth. SOF are uniquely 
able to provide a Nation with targeted and precision 
capabilities across the full spectrum of conflict, whether it 
is training partner military units, countering terrorist 
threats or conducting high-end direct action missions. Our 
return on investment is the highest among all U.S. forces.
    The third and fourth SOF truths are interconnected. SOF 
cannot be mass-produced, and competent SOF cannot be created 
after emergencies occur. It has taken the last decade to grow 
our SOF capability from approximately 33,000 service members to 
almost 58,000 today. As we increase the number of SOF, we must 
ensure a commensurate growth in our enablers.
    This takes us to the fifth SOF truth. Most Special 
Operations require non-SOF support, including support from 
general purpose forces and the interagency. We know that the 
team approach in DOD and the interagency and with international 
partners carries the day.
    Another key lesson over the past decade relates to the old 
adage that an ounce of prevention is worth a pound of cure. For 
a relatively small cost, we are able to build partner forces 
and gain access to better local intelligence, which can create 
security without requiring a large, expensive U.S. footprint.
    In the foreseeable future, disrupting, dismantling, and 
defeating Al Qaeda, its adherents and associated movements, 
will continue to dominate the SO/LIC and SOCOM agendas. 
Supporting SOCOM's efforts to refine counternetwork targeting, 
interagency collaboration, and organizational structures will 
remain a priority. SO/LIC will continue to be the focal point 
for coordinating DOD's role in the national strategic 
counterterrorism activities.
    Post-2014, DOD is projecting a baseline requirement of 
10,500 to 12,500 deployed special operators on any given day. 
SOF represents an exceptional value to our Nation, consuming 
just 1.6 percent of the defense budget and comprising less than 
3 percent of U.S. military personnel. The characteristics of 
our Special Operation warriors guarantee that our military 
possesses the capability for facing the unknown threats of the 
future and general purpose forces downsize.
    On behalf of everyone who serves in the Office of the 
Assistant Secretary of Defense for Special Operations/Low-
Intensity Conflict, I thank you for your long-standing support 
of our Special Operations soldiers, sailors, airmen, and 
marines, and the thousands of civilians that support them. This 
concludes my opening remarks, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Lumpkin can be found in the 
Appendix on page 30.]
    Mr. Thornberry. Thank you.
    Admiral.

   STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Good morning. Chairman Thornberry, Ranking 
Member Langevin, and distinguished members of the committee, 
again, thank you for the invitation to appear before this 
committee and the opportunity to represent the men and women of 
the United States Special Operations Command.
    I am honored to command such a capable and effective 
organization, and privileged to appear today alongside my 
teammate, Secretary Michael Lumpkin, the Acting Assistant 
Secretary of Defense for Special Operations and Low-Intensity 
Conflict.
    I have positioned a few posters around the room which 
highlights SOCOM's rich history; our authorities, those 
legislated by Congress and those directed by the President and 
the Secretary of Defense; how Special Operations has changed 
since 9/11; where we are today; and how we are preparing for 
tomorrow.
    As you know, SOCOM was legislatively created by Congress in 
1986. Congress' vision and support, coupled with tremendous 
military leaders and exceedingly talented operators, have 
created the most capable Special Operations force the world has 
ever seen. I applaud lawmakers' foresight in legislating this 
command into existence. You can be very proud of the results.
    U.S. SOCOM is one of nine unified combatant commands across 
the Department of Defense. And while similar in many regards, 
we are unique in that we also exercise numerous service, 
military department, and defense agency-like responsibilities. 
Among SOCOM's legislated responsibility is to prepare Special 
Operations Forces to carry out assigned missions, including 
training and equipping the force, and to command select Special 
Operations missions when directed to do so by the President or 
the Secretary of Defense.
    Additionally, U.S. SOCOM is directed by the Unified Command 
Plan to synchronize planning for global operations against 
terrorist networks. In carrying out these tasks, we work 
closely with the Secretary of Defense, the Joint Staff, the 
geographic combatant commands, and appropriate government 
agencies. These authorities have effectively prepared and 
equipped our force to meet the threats of the last decade, and 
to be postured appropriately for future challenges.
    Since 9/11, our force has doubled in size, our budget has 
tripled, and our deployment requirements have quadrupled. 
However, congressional support has enabled U.S. SOCOM to 
continue providing rapid global options to meet a broad set of 
complex and dynamic challenges. Special Operations Forces 
currently serve in both supporting and supported roles across 
the battlefield.
    With an annual budget of $10.5 billion, U.S. SOCOM 
comprises only 1.6 percent of the Department of Defense 
proposed fiscal year 2012 budget and, put simply, provides a 
tremendous return on the Nation's investment. Our success in 
these roles hinges on the application of the indirect and the 
direct approaches, meaning that both approaches are required to 
achieve the desired results.
    The direct approach is characterized by precision, highly 
kinetic strike forces enabled by technology and linked through 
a digitally networked battlefield. Since 9/11, these largely 
kinetic counterterrorism operations have had great effect 
disrupting Al Qaeda and its affiliates by providing space and 
time for the indirect approach to achieve its desired effect.
    Conversely, the indirect approach is focused on advising, 
assisting, and training our global partners. Our persistent 
presence is enabled by a deep understanding of a local culture 
and context. These two approaches are mutually supportive and 
necessary elements of effective Special Operations employment.
    Currently, more than 13,000 members of Special Operations 
Command are deployed globally, with 85 percent of those forces 
deployed to the Central Command area of responsibility. Of 
these deployed forces, more than 10,000 SOF are in Afghanistan 
and Iraq. The other 3,000 Special Operations Forces are 
deployed to more than 75 countries around the world. Operating 
at the invitation of the country and the approval of the 
ambassador, these forces are performing noncombat missions in 
diverse, challenging environments.
    The goal of these forces deployed outside combat is to 
build partner nation capacity. Building this capacity is 
critical to enabling our partners to deal with their own 
security challenges, strengthening their regional stability, 
and decreasing the demand for U.S. support.
    As many of you know, our total force faces challenges as 
well. With a significantly increased operational tempo and 
continued high demand for Special Operations Forces, the past 
decade of continuous combat has resulted in increased pressure 
on our forces and families. While SOF and their families are 
resilient by nature, the effects of 10 years of focused combat 
operations convinced my predecessor, Admiral Eric Olson, to 
form a task force to examine what he described as the fraying 
around the edges of the force. Over a period of several months, 
the task force conducted over 400 focus group discussions with 
more than 7,000 Special Operations service members and more 
than 1,000 spouses from 55 different SOF units around the 
world, including forces deployed in combat.
    For SOF, there is no single cause responsible for the 
fraying. It is the accumulation of a multitude of stresses 
spread throughout the training and deployment cycle. While I 
can assure you the state of Special Operations Forces is 
strong, the pressure on our service members and their families 
requires careful attention to ensure the long-term health of 
the force. Compounding the stress on the force is the reality 
that the demand for SOF continues to exceed supply.
    As we draw down the general purpose forces in Iraq and 
contemplate drawdown in Afghanistan, SOF will likely be the 
last force to experience relief. As Admiral Mullen said earlier 
this year, SOF are typically the first force in and the last to 
leave. With 85 percent of deployed SOF in the CENTCOM area of 
responsibility, the pent-up demand across the other geographic 
combatant commands continues to grow. And I do not anticipate 
it to decrease.
    Another challenge for SOF is our reliance on the general 
purpose forces for supporting infrastructure and enablers. SOF, 
by design, depends heavily on the service-provided capability 
for support. Consequently, as we look at the drawdown in 
Afghanistan, the potential drawdown in Afghanistan, and the 
potential for additional SOF requirements, we need to make sure 
the appropriate infrastructure and enablers remain in place to 
make SOF as effective as possible on that battlefield.
    Globally, Special Operations Forces are contributing well 
beyond their numbers, and are known for their high return on 
investment. In the future, I see great benefit in developing a 
global SOF network. We are working through the geographic 
combatant commands. And bolstering our ties with the 
interagency and the allied SOF partners, we can react even more 
rapidly and effectively against our enemies.
    My number one priority is winning the current fight, while 
maintaining the health of the force. But close behind that 
priority is expanding this global SOF and interagency network 
to deal with future challenges.
    I would like to conclude with two final points. First, I 
believe the Special Operations Forces have never been more 
valuable to our Nation and to our allies around the world than 
it is today. And the demand will not diminish for the 
foreseeable future.
    Second and lastly, I want you to know how proud I am to 
command the greatest Special Operations force in the world. And 
you have my promise that we will continue to fight as long and 
as hard as you need us to in order to protect this great Nation 
and the principles we hold so dear.
    Thank you again for the opportunity to speak with you 
today, and I look forward to answering your questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 47.]
    Mr. Thornberry. Thank you, Admiral. And I don't believe any 
member of this subcommittee has any doubt about that. And that 
is reassuring.
    Let me ask for you all's brief comments for a couple of 
issues within the time I have available. One is back to the 
statute. As I mentioned, the statute lays out 12 specific areas 
for Special Operations Command. If you look through them, it 
seems to me it is a huge breadth of our security challenges 
right now, from foreign internal defense, terrorism--
counterterrorism, you know, the whole list. Are there any of 
them that you would recommend Congress at least examine to see 
whether there should be changes, either additions or 
subtractions, to that list of 12 that were put in, in the 
original bill?
    Mr. Lumpkin. Mr. Chairman, as we look at the missions that 
were legislated within the Goldwater-Nichols, what we do is we 
have the codified process of the Quadrennial Defense Review, 
where we go through all of these missions and we scrub them to 
make sure that we indeed are doing what needs to be done for 
our Nation. So the process works very well.
    What we have identified in, for example, the 2006 QDR was 
that the missions were largely what we needed to be, but we 
didn't have the force size to accomplish them completely. So 
the QDR 2006 was the program growth of SOF itself, of the 
operators.
    In 2010, we saw the shortfall of the enablers to allow SOF 
to do that, to execute their missions. So we saw that 
programmed in the growth across the FYDP [Future Years Defense 
Program]. And that is the program that we are executing right 
now. So I think our missions are accurate and effective for 
what our Nation needs, but I will defer to Admiral McRaven.
    Admiral McRaven. Sir, I would agree with Secretary Lumpkin.
    The great thing about this is a lot of those missions are 
mutually supporting. So if you are training a Special Forces 
officer and NCO [noncommissioned officer] in how do 
counterinsurgency, that same skill set can apply to foreign 
internal defense. If you are training an operator in how to do 
counterterrorism, a lot of those same skill sets will apply to 
countering the proliferation of weapons of mass destruction.
    So the great thing is when we look at those mission sets 
that we have, again, I think if you focus on kind of the direct 
and the indirect approach, and we train all of our operators to 
do both, the mission set, as Secretary Lumpkin said, I think is 
exactly what we need now and for the future.
    Mr. Thornberry. Okay.
    Second issue I would invite you all's comments on is 
budget. Under some scenarios, there could be reductions to 
every account in the defense budget, as I understand the way 
that potential sequestration would operate. I also understand 
from reading the press that the Department of Defense has put 
out some restrictions on how military officers can talk about 
consequences of defense budget cuts. And I certainly am not 
asking you to violate any orders that you received. But I would 
appreciate, I think we all need to hear somewhat about the 
potential for 5, 10 percent budget cuts to SOCOM's budget.
    Mr. Lumpkin. Within the Department, as you are aware, Mr. 
Chairman, is that we are doing a strategy-based review as far 
as the budget reductions to make sure that we have a holistic 
look at what the requirements are of the Nation and to make 
sure that we have the forces that are prepared to respond to 
those future situations globally.
    So we are looking within the Department to find out where 
we can find those efficiencies. The key that we are really 
looking at, not only within the SOF portfolio, but also with 
the enablers, because as the services look at reductions that 
may impact them, they have a direct impact on us, for a number 
of reasons.
    First of all, that is where we draw a large portion of our 
forces from. They come into the general purpose forces and then 
will transition to SOF at some point. So we have them as a 
talent pool, first of all.
    Number two is that they provide the support that we need to 
execute our mission so we can focus on those specifically. And 
while we do have the need for organic combat support and combat 
service support, we do rely heavily on the general purpose 
forces. So we are looking very closely to see what the budget 
impacts are going to have on them, which will in turn influence 
and impact us.
    Admiral McRaven. Sir, I just echo those comments.
    I think, within OSD [Office of the Secretary of Defense], 
within the Department of Defense, they understand the value 
that SOF brings to the current fight and the future fight.
    Our real concern, as Secretary Lumpkin said, is the impact 
on the services. And as the services have to potentially cut 
key enablers, that is going to affect us. And we just have to 
make sure that we are in constant dialogue with the services, 
which we are through this whole process.
    Mr. Thornberry. Okay. Just be in constant dialogue with us, 
too, because I am concerned about where this could lead and the 
idea that some people might have that, oh, we can keep the 
counterterrorism effort going; we will just cut the Army, Navy, 
Air Force, Marines. This enabler issue that you brought up I 
think may not be apparent to most people.
    The gentleman from Rhode Island.
    Mr. Langevin. Thank you, Mr. Chairman.
    Again Mr. Secretary and Admiral, thank you for your 
testimony here today and your service.
    Given my roles on both the House Armed Services Committee 
and the House Intelligence Committee, and the ability to have 
transparencies into both Title 10 and Title 50 
responsibilities, I wanted to focus on that area a bit this 
morning.
    I am increasingly aware of and to a degree concerned that 
the lines between those two authorities are becoming blurred as 
they relate to our military SOF capabilities. Ten years ago, 
the 9/11 Commission, for example, recommended that 
responsibility for paramilitary operations should be shifted 
from the CIA [Central Intelligence Agency] to U.S. Special 
Operations Command. This recommendation was primarily based on 
the belief that the CIA doesn't have a robust capability for 
conducting these types of activities. But with over a decade of 
warfare experience now under its belt, I certainly believe it 
goes without saying that the CIA's capability has grown 
tremendously in this area.
    Without delving into classified information, and we will 
talk more about this in a classified setting later, I would 
like to hear your thoughts on the following: Has the Title 10-
Title 50 divide taxed your force significantly? Do you agree 
with the 9/11 Commission that the U.S. military should take on 
this traditionally agency-led role? And the third question in 
this area, how can Congress best bridge the Title 10-Title 50 
divide and provide the necessary oversight in this somewhat 
gray area?
    So, Mr. Secretary, do you want to start?
    Mr. Lumpkin. Thank you for the question, sir.
    We can go more in depth, of course, in the closed session 
after this. I would submit that the 10-50 divide that you speak 
of, we have a very good relationship with the interagency. We 
have the processes and memorandums, in terms of reference, in 
place to effectively ensure that we within the Office of 
Secretary of Defense's Special Operations have oversight over 
any activities that go on between U.S. Special Operations 
Command and the interagency in that realm.
    I don't believe that this is a mission at this point that 
should migrate to DOD because the relationship is very good, 
and it maximizes and gives us the capability to work through 
the different authorities that each agency has. And the rest of 
it I would prefer to defer to the closed session, if possible, 
sir.
    Mr. Langevin. Fair enough.
    Let me ask this, and I think I can probably ask this in 
open session, is the agency properly resourced to do the 
missions that it is called upon to do, or is it the type of 
thing where they are stressed and it is more of an area where 
SOF forces would be more capable?
    Mr. Lumpkin. I have not run into a situation yet where they 
were resource deprived to execute a mission that was uniquely 
theirs that we could not help them with. When they find that 
there is a shortage, we can work something through that to 
bridging the gap to make sure they have the capabilities that 
are necessary.
    Mr. Langevin. Okay.
    Admiral, do you care to comment?
    Admiral McRaven. Sir, I am not sure there is much to add, 
but I will tell you the relationship between CIA and Special 
Operations Forces is as good as I have ever seen it. Both under 
Director Panetta, and now, of course, under Director Petraeus, 
I think we are going to see that relationship continue to 
strengthen and blossom. And again, great relationship.
    I think we clearly understand on the Department of Defense 
side the lanes in the road in terms of Title 10 versus Title 
50. And as Secretary Lumpkin said, I think we can certainly 
address some of your other concerns in the closed session.
    Mr. Langevin. Fair enough. Let me turn to budgets in the 
time that I have left.
    Mr. Secretary, in light of the budget debate here in 
Washington and the inevitable shrinking of the defense budget, 
I am concerned about the effects of this squeeze on the SOF 
community, as is the chairman. During our brief meeting 
yesterday, you had mentioned concerns about the effects of 
ongoing DOD budget efficiency efforts on SOCOM and the various 
forces who would enable SOF to do their mission so well. Can 
you elaborate on those concerns more specifically, and which 
enablers are absolutely vital? And are there any areas where 
some flexibility exists in those enabling forces?
    Mr. Lumpkin. Thank you, sir.
    The principal concern goes back to the issue of enablers, 
to making sure that those are in place to support our SOF. As 
we see the general purpose force footprint reduced, 
specifically in Afghanistan in the future, we understand there 
is going to be a higher reliance on the Special Operations 
community. So we are watching to see how those reductions will 
impact SOF.
    ISR [intelligence, surveillance, and reconnaissance] in 
particular is one thing that we rely heavily upon. And so we 
have to make sure that we watch to see how that looks and how 
that goes to make sure we fully recognize the impact on our 
Special Operations community. So, again, it goes back to 
largely to the enablers.
    I think our Nation understands the benefit of SOF, 
especially in the environment that we anticipate in the future 
globally. So I think that we need to work with the services, 
make sure that we are focused and adaptive to what happens in 
the future as we look at the budgets in the coming years.
    Mr. Langevin. Okay.
    Thank you both for your testimony.
    I yield back.
    Mr. Thornberry. Thank you.
    Mr. Hunter.
    Mr. Hunter. Thanks, Mr. Chairman.
    First question, Admiral, is you talked about pent-up 
demand. I am assuming you mean Central America, South America, 
Philippines. Can you expand on that a little bit?
    Admiral McRaven. Yes, sir. As I mentioned in my opening 
statements, we have got about 85 percent of our Special 
Operations Forces currently in the CENTCOM area of operation. 
And frankly, I think at this time and place, that is probably 
the right percentage to have there.
    But clearly, there remains demand in other theaters that 
over the course of the last 10 years, we have had to draw from 
some of the other theaters in order to support the wars in Iraq 
and Afghanistan. So as we look at the future and the potential, 
with the drawdown in Iraq and obviously, over time, the 
drawdown in Afghanistan, certainly what I will try to do is 
balance those requirements that are coming from the geographic 
combatant commands in the various theaters so we can better 
support them. But right now a lot of our lift, a lot of our 
personnel have come from those theaters in order to support the 
effort in CENTCOM.
    Mr. Hunter. So when you look out the next say even 10 to 20 
years and how SOF is going to need to transition, whether it is 
being more in like Southeast Asia, what do you see as the most 
important thing that--because you have people like Chairman 
Thornberry, Chairman Langevin, they have been here for a long 
time. They have seen administrations come and go. They have 
been here prior to 9/11 and afterwards. So what is next, 
looking forward, that we need to make sure that we don't take 
our eye off the ball as those of us that are here longer, 
through multiple administrations, through multiple changes, 
multiple wars, what do we need to keep focused on over the long 
term?
    Admiral McRaven. Yes, sir. Our strength I think is this 
global SOF network that I talked a little bit about in the 
opening comments. We work through the theater Special 
Operations commands [SOCs] in order to influence and support 
the geographic combatant commanders. So as I look at the future 
of the U.S. Special Operations Command, one of the areas where 
I intend to put a lot of emphasis is building up the theater 
Special Operations commands so that they have the entire 
spectrum of capability that I think they will need for the 
future.
    Now, every theater Special Operations command will be a 
little different. Clearly, as we look at someplace like PACOM 
[U.S. Pacific Command] and SOCPAC [Special Operations Command 
Pacific], can they use ISR, for example, unmanned ISR? And the 
answer is I think in certain cases, they absolutely could for 
disaster relief. If a tsunami hit someplace, somebody may want 
to understand what the problem looks like. So ISR is probably 
applicable in SOCPAC as well as SOCSOUTH [Special Operations 
Component, U.S. Southern Command].
    But as you look at a place like SOCEUR [Special Operations 
Command Europe], I am sure our ability to fly into European 
airspace with unmanned aerial vehicles is probably a 
nonstarter. So we are going to have to balance out what comes 
out of Afghanistan, as you point out, in the next--whatever 
that timeline looks like, 5, 10 years--take those resources and 
then again balance them out across the various theater SOCs. 
But I believe that our future, SOCOM's future, lies in the 
theater of Special Operations Forces and making sure that they 
are robust enough to handle the problems in their particular 
geographic areas.
    Mr. Hunter. Going back to enablers again, you can talk 
conventional Navy, which is your primary enabler 
internationally--not right now in Iraq and Afghanistan, but 
primarily after these--we draw down. Do you think that they are 
set up in a way right now? Would you change anything in big 
Navy, conventional Navy in the ships that they are buying, in 
the way that they are going towards unmanned vehicles in their 
movement, I guess trying to get involved right now in these two 
wars and be somehow involved in these two wars and have a role 
to play? Would you change their direction, or do you think that 
they are doing enough to enable you in the future when we start 
moving out of Iraq and Afghanistan?
    Mr. Lumpkin. If I may, Mr. Hunter, we are working closely 
with the Navy as far as when it comes to their structure, 
especially in the realm of maritime ISR, to support SOF and to 
make sure that they have a capability that can meet our needs 
globally, especially in the expeditionary nature of the Navy as 
we move forward and sometimes frequently with short or little 
notice that if they are already in place, they can support our 
forces through that maritime ISR. So that is one of the key 
things that we are working with the Navy in particular on.
    Mr. Hunter. What about shipbuilding? Are you guys happy 
with the Littoral Combat Ship [LCS] and its capability?
    Mr. Lumpkin. Candidly, I haven't had those discussions with 
the Navy. As we look at it, a more robust capability is always 
better for us that is out there. But I would like to take that 
one for the record, if that is okay with you, sir.
    Mr. Hunter. So SOF, just to make sure, SOF has not looked 
at then the LCS as one of their primary vehicles for the 
future? Especially the Navy SEALs?
    Mr. Lumpkin. We have definitely, I know the force has 
looked at the LCS and the Navy capability at large. I don't 
have the answer to that question right now, and I would like to 
take it for the record.
    [The information referred to can be found in the Appendix 
on page 57.]
    Mr. Hunter. Thank you.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And Secretary Lumpkin and Admiral McRaven, thank you both 
for being here.
    I especially want to welcome a fellow San Diegan, as well, 
Mr. Secretary, thank you.
    I think one of the things that has become really clear is 
that our SOF members have become really the experts in the 
whole-of-government approach. And I wonder if you could share 
with us, I guess is there something that we really can take 
from your experience, from the SOF's experience into the 
military as a whole as we train and prepare individuals on all 
of the--across the services? And also whether in fact we are 
able to I guess send a clear message that, working with our 
international partners, that it takes--you know, it is still, 
as we deal with SOF, it is still the military. And yet we talk 
about the whole of government as being something perhaps 
different and added value to the military. How do you work that 
in the field, particularly as we go into many areas where we 
are trying to prevent those conflicts?
    Admiral McRaven. Yes, ma'am, thank you.
    And I am glad you asked the question. Frankly, from my 
previous command tour as the commander of JSOC [Joint Special 
Operations Command], I can tell you that not a single mission 
that we conducted did not have a heavy interagency flavor to 
it. And we learned very early on that what the interagency 
brought in terms of diversity of their cultures and their 
unique capabilities was a huge enabler for Special Operations 
Forces, particularly the kinetic side. So if you are going to 
go against a target, you are going to have intelligence support 
from CIA, NSA [National Security Agency], DIA [Defense 
Intelligence Agency]. You will have support from NGA [National 
Geospatial-Intelligence Agency] on the graphics. Everybody, and 
of course State Department, a key player in all of this. FBI 
[Federal Bureau of Investigation], as we are supporting certain 
missions that the FBI may be conducting. So tremendous 
interagency lash up between Special Operations and our 
interagency partners.
    On the indirect side, I would say it is very much the same. 
Those forces out in the field are working with USAID [U.S. 
Agency for International Development]. They are working with 
NGOs [nongovernmental organizations], again, trying to build 
host nation capacity. If they are in a noncombat area, they are 
sitting at the table with the country teams to make sure that 
the country team mission, that they are in support of that. So 
interagency is really kind of a foundation of how we are doing 
Special Operations today.
    Mrs. Davis. Is there something unique about the way you 
have been able to break down those barriers and perhaps we have 
had more difficulty in other areas?
    Admiral McRaven. I think a lot of it has do with at the end 
of the day, there are results, in terms of if an interagency 
supports an operation in Afghanistan with intelligence, or 
graphics, or authorities, they will see a result of their 
support to Special Operations.
    And that tangible result really makes a difference in how 
much they want to provide support. And you see that again down 
range as well.
    I think if you would talk to ambassadors across the 75 
countries in which we are in kind of day in and day out, they 
will tell you that the support provided by the military 
information support teams, the civil affairs teams, and then 
the joint training that happens with the Special Forces and the 
SEALs is tremendous to support U.S. policy. So they see 
immediate results when they invest in Special Operations. And I 
think that is what brings us together.
    Mrs. Davis. Is there something in particular we, though, 
could generalize to training among our forces? I know we have 
done cultural training. What is it that should be included 
more, that should be a higher priority perhaps than what we 
have today?
    Admiral McRaven. In terms of Special Operations or the 
conventional force?
    Mrs. Davis. Conventional forces.
    Admiral McRaven. Yes, ma'am.
    I think the conventional forces are also embracing the 
interagency. I can tell you from my time in Afghanistan, you 
saw a little bit of what we had developed at the Joint Special 
Operations Command in Afghanistan with all the way down to the 
brigade combat teams and to the battalions that were on the 
ground. They knew that the interagency support, the 
intelligence community, along with the other supporting 
agencies were a tremendous resource that they could use. And 
again, they got results.
    So I think the conventional force gets it. It is just that 
we are dealing with a larger scale in the conventional force; 
whereas the smaller scale of SOCOM and Special Operations 
Forces allows us to turn that information more quickly.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you.
    If I could make an editorial comment, I greatly admire Ms. 
Davis's relentless pursuit of making sure that the Federal 
Government can use all the tools available to it as effectively 
as possible.
    And I appreciate your answers on the good things that are 
happening in the theater. But in my opinion, we have a ways to 
go in this government to really be effective with all the tools 
we have and to break down those barriers that still exist.
    Mr. Conaway.
    Mr. Conaway. Preach on, Mr. Chairman. Preach on.
    Admiral, Mr. Secretary, thank you all for being here. I 
appreciate it. Thank you for your service.
    Admiral McRaven, you walked us through a little bit of the 
things that you are doing and that Admiral Olson started with 
respect to making sure that the folks we ask to do the most--
and quite frankly, we probably ask them do more than we should 
have, but we will continue to ask them because they will stand 
in and make it happen--that they and their families are 
treated--not treated well, but have the tools and resources 
they need to do whatever it is that must be done so that the 
next time we ask them to go do something, they are ready to do 
it. And then when they come back from that, that they go back 
to being able to live as a family man and taking care of their 
families.
    Are there things that you would like to do, or things you 
would like to have done that you can't do at this point in time 
because you need authorities or something? I assume that the 
things you can do you are doing. But is there anything out 
there that needs to be done that this group needs to be aware 
of?
    Admiral McRaven. Sir, I think we have all the authorities 
we need. And I think that we have the resources we need. I 
think, frankly, it is a function of focusing our resources. The 
Pressure on the Force Task Force that Admiral Olson started 
just recently kind of reported out. And I have gotten the 
recommendations from that task force. And in fact, I am sitting 
down with my staff at USSOCOM to figure out how we are going to 
implement those recommendations. Some of them I think are well 
within our ability to implement. And some of them are just the 
nature of the fight that we are in. You know, as long as we are 
continuing to fight, there is going to be stress on the force.
    But what I know I have an obligation to do as the commander 
of SOCOM is to make sure we are making the predictability 
factor as good as we can make it. And by that, when you talk to 
most of the families, they will tell you that if they can get 
more predictability in their spouse's deployment cycle, then 
they can begin to plan things. And they may understand that 
their spouse will be gone on Christmas or on Easter or another 
holiday. And if they can plan for that, they are kind of okay 
with it. But it is the unpredictability that drives a lot of 
them--that drives a lot of the stressors I think around the 
families. And I think we can certainly deal with that issue and 
deal with it well.
    The other piece is education. They want to understand the 
effects of TBI [traumatic brain injury] and PTSD [post-
traumatic stress disorder]. And so there is an education piece 
that I think we have got to broaden the aperture a little bit 
with our families.
    Mr. Conaway. I am sure everybody on this committee, as well 
as the broader full committee, would be keenly interested in 
tracking or watching those kinds of things that you do as a 
result of the report that the task force put in place.
    One of the tools that you have to have is language skills. 
How are you dealing with the demand for language skills when 
you are having folks at the operational tempo that you have got 
them at? Talk to us a little bit about what the focus is there.
    Admiral McRaven. Sir, we have got a magnificent language 
program at Fort Bragg that the U.S. Army Special Operations 
Command runs. And every Special Operations officer and NCO at 
some point in time in his career is expected to get a language 
baseline.
    So we are continuing to invest a lot of money in language 
because, as I pointed out in my opening comments, I mean, it is 
about us being culturally aware. And I don't think you can 
become culturally aware of a society until you can understand 
their language. I think that is a big part of it at least. So 
we are putting a lot of investment in it. And I know that is 
going to pay huge dividends for us in the future. It is 
certainly one of my top priorities.
    Mr. Conaway. Well, in the time I have got left, General 
Clapper made an interesting comment the other day in a 
conversation in Intel spaces about not everything that the 
intel community does is of equal value. And I don't need an 
answer this morning, but one of the things that kind of 
following on the chairman's questions about those 12 things 
that we have asked you to do, is an honest, straightforward 
analysis at some point in time that if there are things that 
you can off-load, not that they are not super important, but 
things that you can off-load to other places or that we simply 
as a team don't need to do, that is something that I think 
collectively the entire system ought to be thinking about and 
looking at as we look at shrinking resources or resources that 
stay flat, how do we manage that? And one of them has to be an 
opportunity to say this is something that we did in the past, 
you asked us to do in the past, and we don't think that is 
necessary, and having an honest conversation.
    Your tendency, I seem to hear from all the folks in 
uniform, is that whatever it is you are asked to do, it is yes, 
sir, yes, ma'am, and we will go do it. There ought to be an 
opportunity for us at some point to have a rational 
conversation around that issue that there are just some things 
that you don't need do or don't need to be done. And we need to 
have that conversation. I yield back.
    Mr. Thornberry. Thank you.
    Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman.
    I thank the panelists for being here today. To a degree I 
think we are all products of our own experience. I am no 
different. On this subject, I am informed by my experiences as 
a G3 for Multinational Division North during the surge. A lot 
of debate as to what may have gone into why the atmosphere, the 
environment in Iraq changed over time. I think it is really a 
combination of things. I think, yes, the Sunni Awakening had a 
part of it. There is no question the surge also played a part, 
because it was important to have security on the ground to 
allow all the Iraqis to give some thought as to what kind of 
future they wanted to have.
    But then also very important the role that the Joint 
Special Operations Task Force played in terms of killing and 
capturing high-value individuals. I saw on a daily basis just 
the remarkable integration of intel and operations for 
effective action. And very keenly interested in seeing us raise 
that level of play and focus at the national level. I am aware 
of, to some degree, of global pursuit and some of the actions 
and studies that have been done in the past. And I am trying to 
bring that spirit to what we are doing nationally in terms of 
policy.
    So in the intel authorization bill, got an amendment that 
looks at consolidating the intel community to better fuse it 
with operations. And I wanted to make you aware that with the 
chairman and the ranking member's help, we did put in the mark 
something you alluded to earlier, Admiral, and that is the 1986 
law that created SOCOM. And I am of the mind that we should 
revisit that and take a look at, are there changes, 
restructuring within the headquarters, that may allow us to 
more effectively fuse intel and ops and to really neutralize 
this threat? Even helping us work in concert with friends and 
allies as you bring this to a finer point and to a higher 
priority.
    And so I guess I wanted to make you aware of that, if you 
weren't aware, that I have had conversations with your 
predecessor about this. I am particularly frustrated with the 
Christmas Day bomber and the fact that that radicalized young 
youth's dad called our country, and we didn't have the agility 
to process that information. And you know, had we had the same 
facility as we had in Iraq at the operational and tactical 
level, I think at the national level, we would have been in a 
better position to address that threat.
    So I just want you to know I am going to be supportive 
going forward to your efforts, and certainly welcome your 
dialogue at this point on these comments.
    Admiral McRaven. Well, sir, first, thank you very much. And 
I certainly appreciate your interest in those efforts, because 
we think they are exceedingly important. And as you know from 
your time in Iraq, we took those lessons learned, you know, how 
do you fuse ops and intel, and we migrated that over to 
Afghanistan. And I would contend that the reason the Special 
Operations Forces on the kinetic side have been so successful 
in Afghanistan is because of the fusion of that ops and intel.
    Having said that, I will tell you that I think our greatest 
success in Afghanistan has come from the Special Forces 
officers and NCOs who have been on the ground trying to change 
the landscape, if you will, in terms of our relationships with 
the Afghans. The village stability operations [VSO], developing 
the Afghan local police [ALP], this is, I think, the most 
promising effort we have in Afghanistan right now. And the 
fusion of the ops-intel piece, as you know, much like Iraq, you 
know, we are not going to be able to kind of kill our way to 
victory in Afghanistan. We have always understood that. Every 
soldier understands that you can't do that in a 
counterinsurgency.
    So the effort that we are putting in to supporting the VSO 
and the ALP I think is going to be critical. The real question 
is how do we take that concept of fusing ops and intel, get it 
down to the ALP level, the village stability operation level, 
and ensure that those young SF officers and NCOs and SEALs that 
are out there doing this have got the same sort of situational 
awareness that we have kind of on the kinetic side. It is a 
different requirement. The kinetic side, frankly, is a lot 
easier than understanding the human landscape out there in the 
districts and the provinces.
    Mr. Gibson. Without question, tremendous integration of the 
indirect and direct approach there. And in particular, I just 
wanted to, as we close here with my time, that your predecessor 
had some ideas on how we may be able to reorganize the 
headquarters there so that we could elevate the priority, the 
very successful actions that are happening in the Central 
Command area of responsibility so that we recognize we face a 
global threat here. And in protecting our cherished way of 
life, we are going to have to I think step it up a little bit. 
And really it is us in the Congress I think that can be helpful 
to you, because every day, the Herculean efforts that are done 
throughout your command, there may be ways that we can organize 
more effectively.
    Thank you.
    I yield back, Mr. Chairman.
    Mr. Thornberry. I thank the gentleman.
    And I appreciate, Admiral, your comments on the village 
stability operations. Members of this subcommittee have been in 
Afghanistan walking in some of those villages, and are also 
incredibly impressed at the progress being made through that 
effort. And as you say, it is a complicated, different sort of 
mission. But incredibly promising.
    Mr. Franks.
    Mr. Franks. Thank you, Mr. Chairman.
    You know, it can never be said often enough how much those 
of us on this committee appreciate all of you. It is easy to 
say that, Mr. Lumpkin, Admiral McRaven, those of you that are 
attending, it is easy to say you are the best of the best. 
Everyone knows that. But oftentimes I think it is something we 
overlook, that those of you in this position don't--aren't 
motivated for glory, but you are committed to fight because you 
love what is behind you, not because you hate what is in front 
of you. And we just want you to know this committee appreciates 
that very deeply. And some of the recent discussions on the 
budget may not reflect that.
    And so I don't want to ask the wrong question here. I know 
that those of you in the military and in uniform always handle 
some of the most awkward questions so well. Sometimes you get 
asked the most stupid questions on the planet, and you come 
back with great decorum and answer them like they were coming 
from the deepest intellect possible. And I am grateful.
    But at a time when there are, as you put it, Mr. Lumpkin, 
Special Forces warriors spending more time in a year in a 
deployed or training posture than at home, you know, there are 
those of us that are very concerned about the budget hollowing 
out our forces and doing things that put enormous pressures on 
all of you. So I guess I have to ask a little bit of a question 
that you can't possibly answer. And that is, do you feel 
forgotten by Congress? Do you feel Congress doesn't care?
    Mr. Lumpkin. Absolutely not.
    Mr. Franks. He had to say it that way, didn't he?
    Mr. Lumpkin. The Congress, especially this committee, has 
been very supportive of U.S. Special Operations Command, and my 
office, to make sure that we are resourced, whether it was 
through QDR, the different QDRs, 06 and 10, to build us a force 
that can meet the needs of the future. The key is we have to 
stay and continue that growth that is already programmed to 
make sure that we are there for the Nation in the future.
    Mr. Franks. Well, I can tell you, there are a lot of us 
that are deeply committed to that. But when you talk about 
fraying around the edges, there is a conviction on our parts, 
many of us, that part of that rests with Congress. And we want 
to make sure that you have the resources and everything that 
you need. So let me just ask a general two-part question to 
both of you, and it will probably take the rest of my time for 
you to answer. If you had any area that you could point to as 
your front line in your agencies, in the Special Forces, the 
things that you think represent the greatest challenge that you 
have, can you elaborate on that a little bit?
    And also can you say to this committee, if you were able to 
speak as candidly as possible, what would be the greatest need 
that you have? What would be the greatest--not request, but 
admonition that you might make toward this committee as to what 
we might do, whether it is in an area of funding, or the focus 
of that funding, or in the area of policy? What is it that you 
need most from us to do the tremendous job that you do?
    And Mr. Lumpkin, I will start with you.
    And then I hope, Admiral McRaven, you will follow up.
    Mr. Lumpkin. Thank you, sir. And I will be brief here. As 
we look at the fiscal challenges that we face, the sequester in 
particular would be very problematic for us.
    Mr. Franks. Problematic. That is a nice way to put it.
    Mr. Lumpkin. In that it doesn't allow us to be strategic. 
So in order to make sure that we don't go down that road would 
be very helpful to us and the Nation as a whole. And the 
greatest need, frankly, is to stay on the current program 
growth that we have got as we are moving forward. Because that 
will get us where we need to be as a Nation and to make sure 
that our SOF is properly resourced.
    Admiral McRaven. Sir, if I could add to that, I think our 
greatest challenge in SOF right now is that we are in great 
demand. And that is a good place to be, but obviously, that 
demand is in fact taxing our soldiers, sailors, airmen, 
marines, and civilians that support SOCOM. I would tell you 
that the greatest need is to continue to have great Americans 
and congressional delegations come down range and continue to 
show the soldiers their support.
    I have probably done hundreds of congressional delegations 
that have come to visit me in Iraq and Afghanistan. And every 
one of them sends a signal to those young soldiers that America 
cares. So it is vitally important, I think, for the Congress to 
continue to come down range to see what is going on, to have an 
understanding of what the needs of the soldiers are, and then 
come back here and be able to put that into play.
    But I can tell you as a commander, I always welcome the 
congressional delegations and the staffdels. And I think you 
should continue that to show support for the effort.
    Mr. Franks. Well, thank you both. Thank you all for your 
noble service. Thank you.
    Mr. Thornberry. I thank the gentleman.
    Let me ask about a specific authority. There has been talk, 
Admiral, about having your position have greater influence on 
personnel management issues. And as you know, there has been a 
proposal to change one of the words in Title 10, where it would 
give you--change from monitoring to coordinating. The idea 
would be to kind of strengthen the hand you have in personnel 
management. Now, as I understand it, DOD has put out kind of a 
new directive, but to date, only the Navy has reached an 
agreement on how to implement that. So it comes back to my mind 
saying, well, maybe we need to take another look at the law, if 
the other services are not able to work with SOCOM, to have 
some sort of arrangement on how the personnel issues will fit 
together. Tell me where we are, and shouldn't we look at that 
issue?
    Admiral McRaven. Sir, as you know, I have been in command 
about 5 weeks now. And but I can tell you from my discussions 
with Admiral Olson, this was clearly a concern of his. Having 
said that, I think the relationships between Admiral Olson and 
the service chiefs was very strong. And he made a point on a 
very routine basis to sit down with the service chiefs to 
ensure that between what the service chiefs felt was their 
responsibility, what the service responsibility was for 
advancement and for promotions, was kind of consistent with 
what Admiral Olson and how Admiral Olson wanted to kind of 
shape the force. So I think the dialogue and the discussion 
between the services and SOCOM has been very good. But that is 
at a very thin level, if you will, of the force.
    So, Admiral Olson, again I will defer to his wisdom on 
this, was always very strongly committed to getting the 
language changed from monitoring to coordinating, to again give 
SOCOM a little bit more strength over the advancement and the 
promotion of our service members.
    Mr. Thornberry. Well, it is certainly something that I am 
personally very interested in, especially given the delays in 
having the other services work out an arrangement. Let me ask 
this, Admiral. I have been appalled, frankly, at the amount of 
public disclosure of, not just the Osama bin Laden raid, but a 
variety of Special Operations missions. Some of that is illegal 
leaks. Some of it comes from briefings by senior officials of 
various kinds. Has the tremendous amount of information that 
has gotten into the public sphere on operations that are 
carried out by Special Operations Command folks increased the 
danger that people operate under in, not just Iraq and 
Afghanistan, but around the world?
    Admiral McRaven. Sir, as you know, we go to great pains to 
protect our operations and make sure that we maintain our 
operational security as best we can. But the reality of the 
matter is, you know, we live in a very media-intense 
environment in this day and age. And I think there are certain 
red lines, as we look at what we expose to the public, whereby 
things like the names of the operators, which obviously would 
bring greater risk to them and to their families, we are very, 
very conscious of that. And frankly, I have found that the 
American public understands that and the media understands 
that. And they are generally pretty good about ensuring they 
stay below that red line, that threshold of protecting the 
individual operators and their families. Clearly, certain 
tactics, techniques, and procedures are of concern to us. So if 
we have something that is exceedingly sensitive, that is 
something we need to protect very, very carefully. However, 
having said that, a lot of the operations that the media gets a 
hold of and will tend to embellish upon, is a fairly routine 
operation. Again, in a 1-year period of time in Afghanistan, we 
conducted 2,000 raids. Well, those raids are a pretty standard 
kind of infantry tactic, if you will, on how to get to an 
objective. And the media tend to sensationalize it a little 
bit. But frankly, there is very little I think of that aspect 
of it that is compromising to Special Operations.
    Now, again, when we get into some of the much more 
sensitive operations and the areas in which we conduct them, 
then absolutely, sir, that is a red line, and we have to be 
very careful about the exposure of those operations.
    Mr. Thornberry. Obviously, we kind of think about this in a 
counterterrorism sense. But if you think about 
counterproliferation and a variety of other missions in your 
set, then it even increases concern.
    Unless somebody else has a pressing question they would 
like to ask in the open session, we will adjourn and reconvene 
in a closed briefing.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           September 22, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 22, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0785.001
    
    [GRAPHIC] [TIFF OMITTED] T0785.002
    
    [GRAPHIC] [TIFF OMITTED] T0785.003
    
    [GRAPHIC] [TIFF OMITTED] T0785.004
    
    [GRAPHIC] [TIFF OMITTED] T0785.005
    
    [GRAPHIC] [TIFF OMITTED] T0785.006
    
    [GRAPHIC] [TIFF OMITTED] T0785.007
    
    [GRAPHIC] [TIFF OMITTED] T0785.008
    
    [GRAPHIC] [TIFF OMITTED] T0785.009
    
    [GRAPHIC] [TIFF OMITTED] T0785.010
    
    [GRAPHIC] [TIFF OMITTED] T0785.011
    
    [GRAPHIC] [TIFF OMITTED] T0785.012
    
    [GRAPHIC] [TIFF OMITTED] T0785.013
    
    [GRAPHIC] [TIFF OMITTED] T0785.014
    
    [GRAPHIC] [TIFF OMITTED] T0785.015
    
    [GRAPHIC] [TIFF OMITTED] T0785.016
    
    [GRAPHIC] [TIFF OMITTED] T0785.017
    
    [GRAPHIC] [TIFF OMITTED] T0785.018
    
    [GRAPHIC] [TIFF OMITTED] T0785.019
    
    [GRAPHIC] [TIFF OMITTED] T0785.020
    
    [GRAPHIC] [TIFF OMITTED] T0785.021
    
    [GRAPHIC] [TIFF OMITTED] T0785.022
    
    [GRAPHIC] [TIFF OMITTED] T0785.023
    
    [GRAPHIC] [TIFF OMITTED] T0785.024
    
    [GRAPHIC] [TIFF OMITTED] T0785.025
    
    [GRAPHIC] [TIFF OMITTED] T0785.026
    
    [GRAPHIC] [TIFF OMITTED] T0785.027
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 22, 2011

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Lumpkin. Special Operations Forces (SOF) are very pleased with 
the Navy Littoral Combat Ship (LCS). Looking to a future in which we 
anticipate increased mission complexity for our special forces, the 
transformational capability of the LCS is well suited for operating in 
difficult littoral environments. The speed of the LCS will enable SOF 
to infiltrate objective areas quickly. The mission bays and the launch 
and retrieval system of the LCS provide unique and flexible mechanisms 
for supporting special operations. More specifically, the launch and 
retrieval system will allow surface or subsurface insertion of SOF. 
Moreover, the LCS will provide SOF the ability to embark with organic 
rotary-wing systems or to utilize Navy assets.
    In addition, the Navy's Firescout Vertical Takeoff Unmanned Aerial 
Vehicle Intelligence Surveillance and Reconnaissance (ISR) system is 
particularly relevant to SOF. Firescout recently conducted a proof of 
concept deployment in support of SOF and provided significant ISR 
support from the sea. This capability is designed to deploy and operate 
with the LCS, and it will give SOF a versatile ISR platform to find and 
fix targets.
    U.S. Naval Special Warfare Command participated in the design of 
the LCS in 2003, and the command continues to be closely integrated 
into the ongoing training, testing, and doctrine development of the 
LCS. One example of SOF's involvement is the development of the 
Irregular Warfare Enhancement to the Surface Warfare Package. This 
enhancement, supported by the Navy, will provide expanded medical, 
training, communications, planning, and storage capability for embarked 
SOF and expeditionary forces.
    In summary, the LCS is an important platform, which provides sea-
based support for the full spectrum of Special Operations. It will 
serve as the primary vehicle for SOF when mission requirements dictate. 
[See page 13.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 22, 2011

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. Can you outline your approach to update the current 
outdated fleet of SEAL underwater delivery vehicles (SEAL SDVs)?
    Mr. Lumpkin. Our approach to updating the SEAL Delivery System 
(SDV) envisions a mix of dry and wet submersible vehicles. The Shallow 
Water Combat Submersible (SWCS) is the program of record for 
replacement of the SEAL Delivery Vehicle (SDV), Naval Special Warfare's 
wet combat submersible capability. The SWCS, an Acquisition Category 
III (ACAT III) Program, achieved Milestone B on October 1, 2010, and on 
June 20, 2011, Teledyne Brown was down selected to develop and build 
the Engineering Development Model. The SWCS program not only includes 
important technology improvements but also includes improved 
capabilities in range and payload. The SWCS is expected to reach 
Initial Operational Capability at the second quarter of Fiscal Year 
2015.
    Mr. Thornberry. Are you concerned that we do not have a capable 
long range mini-submarine to deliver SEALs to denied maritime 
environments?
    Mr. Lumpkin. Yes. We are concerned that we do not have a long-range 
submersible capability to deliver Special Operations Forces (SOF) into 
denied maritime environments. USSOCOM's proposed solution to this 
challenge is to develop a dry combat submersible. The current program 
of record is the Dry Combat Submersible-Medium (DCS-M), which is 
designed to provide our forces a capable, long-range, dry submersible 
to deliver SOF into denied maritime environments. USSOCOM is procuring 
a technology demonstrator to refine the attributes and capabilities of 
the DCS-M. We are working together closely during the current Program 
Budget Review process within the Department to address this 
requirement.
    Mr. Thornberry. With the disestablishment of Joint Forces Command, 
who is now responsible for SOF joint doctrine and training? Are there 
any concerns in this area?
    Mr. Lumpkin. USSOCOM, in coordination with the Joint Staff J7, is 
responsible for developing SOF joint doctrine and training for SOF and 
its assigned forces. Prior to the disestablishment of U.S. Joint Forces 
Command, Special Operations Command--Joint Forces (SOC-JF), was 
responsible for training Joint Task Force commanders and staffs on 
integration and employment of SOF capabilities. In April 2011, SOC-JF 
was reassigned to USSOCOM and renamed Special Operations Command-Joint 
Capabilities (SOC-JC).
    SOC-JC's mission is to train conventional and SOF commanders and 
their staffs, to support USSOCOM international engagement training 
requirements, and to support the implementation of capability solutions 
that improve strategic and operational warfighting readiness and joint 
interoperability. Enhancing the interoperability of conventional and 
SOF commanders and staffs through robust strategic and operational 
level joint training remains a core function of SOC-JC. SOC-JC--in 
conjunction with the Joint SOF University (JSOU)--will continue to 
provide world-class training and education support for SOF and 
conventional forces worldwide.
    The Department is confident that USSOCOM and SOC-JC--like U.S. 
Joint Forces Command--will continue to maintain the high standards of 
joint training and education for SOF.
    Mr. Thornberry. The hearing highlighted the importance of indirect 
special operations. Civil Affairs (CA) and Military Information Support 
Operations (MISO) are central to indirect special operations and are 
being used across the globe. What is your view of our current CA and 
MISO capabilities and can you outline any chances you are considering 
to improve these important but lesser known communities within SOF?
    Mr. Lumpkin. Our Civil Affairs (CA) and Military Information 
Support Operations (MISO) are critical special operations capabilities, 
and they have never been better. Cultural awareness, regional 
knowledge, language ability, and interagency expertise are crucial 
components of the CA and MISO skills that SOF employ in irregular 
warfare and contingency operations in support of theater security 
cooperation objectives. One example of these critical Special 
Operations capabilities is the essential contributions they make to 
Village Stability Operations (VSO) for the war in Afghanistan.
    With respect to CA, there is currently one SOF brigade composed of 
1,288 personnel, of which 230 are operationally deployed to 21 
locations representing each Geographic Combatant Command (GCC). The 
preponderance of CA forces--roughly 90 percent--are Army assets. 
Historically, Army CA was characterized as a SOF asset, and U.S. Army 
Special Operations Command (USASOC) was the proponent responsible for 
managing and overseeing the training, education, equipping, and 
organization of these forces.
    We have learned through our operations since 2001 that CA is not a 
uniquely SOF capability. Accordingly, proponent responsibilities for CA 
were transferred from USASOC to the Department of the Army, and a 
significant effort will be made to improve CA effectiveness and 
efficiency in Fiscal Year 2012. This transfer of responsibility will 
meet two requirements: (1) it will allow SOF CA to focus on support to 
Special Operations; and (2) it will enable the Army leadership to 
develop, build, and maintain the Army's CA capability directly, while 
working to align CA with Stability Operations doctrine and 
requirements.
    In addition to the Army, the other Services have recognized the 
value of developing an organic CA capability. For instance, in 2001 the 
Navy established a 562-person CA capability within its Maritime Civil 
Affairs and Security Training Command (MCAST).
    MISO and persistent engagement are the primary means by which 
Combatant Commanders seek to counter al-Qaida's ideology as well as 
other violent extremist messaging. And, although the majority of the 
Department's MISO forces are part of a small and segmented community 
within the Army, major initiatives are underway to strengthen DOD's 
MISO capabilities. These initiatives include USSOCOM's efforts to 
establish a more robust MISO planning capability at the regionally 
focused Theater Special Operations Commands (TSOC), and to reorganize 
its MISO forces to enable a global network that can better coordinate, 
integrate, and execute MISO in support of the U.S. Government and DOD's 
efforts to Counter Terrorism (CT) and Counter Violent Extremism (CVE).
    Earlier this year, the Commander of USSOCOM submitted a Force 
Design Update requesting the establishment of a Military Information 
Support Operations Command (MISOC), to strengthen our Inform and 
Influence capabilities, and to provide greater capacity to meet 
anticipated future demand. Given the size, complexity, and global reach 
of the MISOC's mission, he requested this command billet be a general 
officer billet.
    I recognize the asymmetric importance of CA and MISO to SOF's 
Irregular Warfare portfolio of capabilities. The Department is working 
to refocus and hone these capabilities within SOF, to maximize the CA 
posture of Army forces, and to enhance the global capacity of our MISO 
forces. These actions are intended to position U.S. SOF to prevail in 
the uncertain security environment of the future.
    Mr. Thornberry. How should special operators and CIA's paramilitary 
forces share responsibilities that interlock and overlap, given 
respective strengths and weaknesses are distinctively different?
    Mr. Lumpkin. USSOCOM and the CIA currently coordinate, share, 
exchange liaison officers and operate side by side in the conduct of 
DOD overt and clandestine operations and CIA's covert operations. Our 
activities are mutually supportive based on each organization's 
strengths and weaknesses and overall capabilities.
    Whichever organization has primary authority to conduct the 
operation leads; whichever organization has the superior planning and 
expertise plans it; both organizations share information about 
intelligence, plans, and ongoing operations fully and completely. 
Whether one or both organizations participate in the execution depends 
on the scope of the plan and the effect that needs to be achieved. 
Currently all USSOCOM and CIA operations are coordinated and 
deconflicted at all levels.
    The current DOD-CIA Memorandum of Agreement allows for these 
activities to be coordinated at the lowest execution coordinating 
authority feasible--forward in the Geographic Combatant Commander's 
area of operation. It also allows each organization to socialize 
differences up through respective leadership chains for resolution. 
This partnering with respect to all operations has strengthened in 
recent years and ensures the application of the correct USG capability 
against agreed upon threats.
    USSOCOM reports all of its clandestine activities quarterly through 
DOD to Congress for appropriate oversight.
    Mr. Thornberry. How may the roles of women in SOF change in the 
future?
    Admiral McRaven. a. Because of the combat exclusion policy USSOCOM 
does not have females assigned to SEALs, Special Forces, Rangers, Air 
Force Special Tactics Teams or Marine Special Operations tactical 
units. SOCOM does have female information (MISO) and civil affairs 
specialists.
    b. SOF are constantly adapting to an increasingly intricate and 
unpredictable operating environments. Because of the restricted access 
to the Afghan female population, females have been used to perform 
tasks deemed culturally inappropriate for male service members and to 
engage the local population in/around secure objective areas.
    c. As a result of the operating environment in Afghanistan, SOCOM 
developed Cultural Support Teams (CST) to support SOF. Incorporating 
female military personnel into our post operation activities have 
allowed our forces greater access and integration with the Afghan 
civilian populace which were not previously accessible.
    d. CSTs are attached to SOF units to influence a larger segment of 
the rural populations enhancing their ability to connect and 
collaborate with a critical part of Afghan society. Currently, there 
are (53) CST-qualified females supporting SOF operations in 
Afghanistan.
    e. This is a capability that we will continue to develop and use in 
the future global operations.
    Mr. Thornberry. What challenges remain with SOF integration with 
conventional or general purpose forces?
    Admiral McRaven. a. 5th SOF Truth: Most special operations require 
Non-SOF Support. The integration of GPF's and SOF has produced 
quantifiable success across Afghanistan. This force multiplication 
construct has enabled rapid expansion (60% increase) of Village 
Stability sites in the past 18 months; definitively improving GIROA 
legitimacy, security and stability.
    b. This adaptive organizational design combined with the resultant 
mission requirements of operating in geographically remote and austere 
locations has dramatically increased SOF dependence on GPF logistical 
support. GPF logistical assistance accounts for approximately 50% of 
the total support for all Village Stability sites.
    c. There has been some institutional capacity challenges associated 
with this integration. GPF service and support personnel familiarities 
with SOF unique equipment have impacted repair and sustainment efforts. 
Additional time has been required to train and familiarize GPF with SOF 
vehicles, radios, weapons and other equipment.
    d. SOF will become increasingly reliant on the Special Operations 
Forces Generation Process (SOFORGEN) to integrate SOF pre-mission 
training with supporting GPF. This process is critical to forming the 
Special Operations Task Forces in CONUS and conducting training before 
deployment. This construct will definitively expand national security 
options, provide opportunity for greater force employment and 
collective force capabilities. This enhanced interoperability between 
GPF and SOF units will increase their functionality and effectiveness 
once the force is forward deployed into the CENTCOM Theater.
    Mr. Thornberry. Please outline for the committee any changes you 
are considering to SOCOM's acquisition framework and authorities?
    Admiral McRaven. USSOCOM is not considering any major changes to 
our overall acquisition framework. However, we have asked for a change 
to the threshold reprogramming limits within the Defense-Wide 
Investment Accounts (Research Development and Procurement) for USSOCOM 
in the FY12 conference report. By changing one word in the current 
reprogramming language; changing ``lesser'' to ``greater'', in the 
language will provide USSOCOM the flexibility within the current 
Acquisition Framework to meet our expanded role in deterring, 
disrupting and defeating global terrorist threats. This simple change 
will provide us the ability to rapidly procure new capabilities and 
upgrade existing equipment to meet emergent SOF requirements. We are 
not requesting a change in public law, but stated in the FY12 
Conference Report. The change would not generate any new reporting 
requirements, since the transparency required for congressional 
oversight is already in place within the Planning, Programming, 
Budgeting and Execution System (PPBES).
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. WITTMAN

    Mr. Wittman. The Subcommittee on Oversight and Investigations is 
currently conducting an investigation focused on Guantanamo Bay 
detainee transfers and rising reengagement rates. The Director of 
National Intelligence James Clapper recently testified that the 
recidivism rate for former detainees has risen to an estimated 27 
percent demonstrating that a significant number of detainees have 
returned to the fight. Can you share your thoughts on this trend and 
its impact on operations?
    Admiral McRaven. SOCOM does not dispute that the trend of terrorist 
recidivism has risen. Admiral Olson testified before this sub-committee 
last year that the recidivism rate was 20% with an expected rising 
trend due to several factors, but the most concerning reason is the 
repatriation of detainees to their country of birth and that particular 
country's decision not to further detain the individual and he returns 
to the battlefield.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
